DOE/IG-0460




               AUDIT
              REPORT

                                THE DEPARTMENT'S MANAGEMENT
                               AND OPERATING CONTRACTOR MAKE-
                                       OR-BUY PROGRAM




                                          FEBRUARY 2000




  U.S. DEPARTMENT OF ENERGY
 OFFICE OF INSPECTOR GENERAL
   OFFICE OF AUDIT SERVICES
                                            February 17, 2000


MEMORANDUM FOR THE SECRETARY

FROM:                   Gregory H. Friedman (Signed)
                        Inspector General

SUBJECT:                INFORMATION: Audit Report on "The Department's Management and
                        Operating Contractor Make-or-Buy Program"

BACKGROUND

In 1994, the Department of Energy's (Department) Contract Reform Team concluded that savings could
accrue to the government if certain operating functions not essential to the Department's core mission
were performed by outside contractors. Over the next several years, the Department initiated actions
that required management and operating (M&O) contractors to identify, categorize, and evaluate all of
their functions and prepare make-or-buy plans to obtain supplies and services on a least-cost basis
subject to program specific make-or-buy criteria. The objective of this audit was to determine whether
the Department's M&O contractors (1) identified those functions for which make-or-buy opportunities
existed and (2) performed cost-benefit analyses.

RESULTS OF AUDIT

Only one of four contractors reviewed (Westinghouse Savannah River Company) had included all
operating functions in its make-or-buy planning efforts. The other three contractors (Lockheed Martin,
University of California, and University of Chicago) had either not included all functions in their make-or-
buy plans or had not scheduled cost-benefit analyses for many outsourcing candidates. This occurred
because Program Offices did not provide M&O contractors with guidance to assist in the identification
process and procurement officials did not monitor contractor implementation of the program adequately.
As a result, cost saving opportunities were missed.

We estimated that the Department could save up to $5.3 million if cost-benefit analyses are conducted.
Additional cost savings are likely if the three contractors reviewed the functions that they had excluded
from the make-or-buy process, which were valued at $1.3 billion. While we focused our review on four
specific M&O contractors, we were able to determine that other Department of Energy M&O
contractors had not included all operating functions in their make-or-buy process. Thus, substantial
additional savings are possible if the make-or-buy concept is fully adopted at all Departmental sites.

We recommended that the Director, Contract Reform and Privatization Project Office, in conjunction
with Headquarters program managers and the Office of Procurement and Assistance Management
develop program specific guidance for evaluating contractor functions and monitor field implementation
of contractor make-or-buy efforts.
                                                 2



MANAGEMENT REACTION

The Director of the Contract Reform and Privatization Project Office generally agreed with and
proposed corrective actions for the recommendations. The Director disagreed with the OIG’s estimate
of savings available to the Department.

Attachment

cc: Deputy Secretary
    Under Secretary
The Department's Management And Operating Contractor
Make-Or-Buy Program


TABLE OF
CONTENTS



                   Overview

                   Introduction And Objective......................................................................1

                   Conclusions And Observations.................................................................1


                   Opportunities For Outsourcing

                   Details Of Finding....................................................................................3

                   Recommendations And Comments.......................................................... 9


                   Appendices

                   1. Scope And Methodology..................................................................11

                   2. Related Reports................................................................................12

                   3. Procurement And Assistance Management Guidance.........................13
Overview

INTRODUCTION AND   In 1994, the Department of Energy's (Department) Contract Reform Team
OBJECTIVE          concluded that savings could accrue to the Government if certain operating
                   functions not essential to the Department's core mission were performed by
                   outside contractors. Over the next several years, the Department developed
                   an approach that required management and operating (M&O) contractors to
                   identify, categorize, and evaluate operating functions and prepare make-or-
                   buy plans to obtain supplies and services on a least-cost basis subject to
                   program specific make-or-buy criteria. Such plans were to set forth each
                   contractor's major functions categorized as "make" (performed by the
                   contractor in-house), "buy" (outsourced), or "make-or-buy." The latter
                   categorization required a cost-benefit analysis before a final determination
                   could be made.

                   The objective of our audit was to determine whether the Department's M&O
                   contractors (1) identified those functions for which make-or-buy
                   opportunities existed and (2) performed cost-benefit analyses.


CONCLUSIONS AND    Only one of four M&O contractors reviewed (Westinghouse Savannah
OBSERVATIONS       River Company) had included all operating functions in its make-or-buy
                   planning efforts. The other three contractors (Lockheed Martin, University
                   of California, and University of Chicago) had either not included all functions
                   in their make-or-buy planning efforts or had not scheduled cost-benefit
                   analyses for many outsourcing candidates. Although the Department had
                   taken actions to strengthen its make-or-buy program, about $1.3 billion in
                   operating functions were not included during the make-or-buy identification
                   process at these three M&O contractors. Furthermore, of the 89 functions
                   that were identified for potential outsourcing, 28, valued at approximately
                   $53 million, were not scheduled for a detailed cost-benefit analysis. This
                   occurred because Headquarters Program Offices did not provide M&O
                   contractors with guidance to assist in the identification process and
                   procurement officials did not monitor contractor implementation of the
                   program. As a result, outsourcing opportunities were missed.

                   We estimated that the Department could save up to $5.3 million if the make-
                   or-buy process is applied to the 28 excluded functions. Additional
                   opportunities for savings may be available if the three contractors evaluated
                   all operating functions in their make-or-buy programs. Developing viable
                   make-or-buy programs at all other M&O contractors could also result in
                   additional savings to the Department.


Page 1                                                           Introduction And Objective/
                                                              Conclusions And Observations
         The conclusion of this report parallels that of a recently issued Office of
         Inspector General report on outsourcing opportunities at Los Alamos
         National Laboratory (WR-B-00-03). The report and this audit, indicate a
         more proactive approach for managing the Department's make-or-buy
         program is needed. Management should consider issues discussed in this
         audit report when preparing its yearend assurance memorandum on internal
         controls.


                                              (Signed)

                                         Office of Inspector General




Page 2                                            Conclusions And Observations
Opportunities For Outsourcing

Identification Process     Only one of the four M&O contractors reviewed, Westinghouse Savannah
And Cost-Benefit           River Company (Savannah River Site), had included all operating functions in
Analysis Not Implemented   their make-or-buy planning efforts to determine if outsourcing opportunities
                           existed. The three other contractors, Lockheed Martin (Sandia National
                           Laboratories), University of California (Lawrence Livermore National
                           Laboratory), and University of Chicago (Argonne National Laboratory) had
                           excluded about $1.3 billion in operating functions in the make-or-buy
                           identification process. Furthermore, 28 of the 89 functions identified by 2 of
                           the contractors (Sandia and Argonne) for potential outsourcing were not
                           scheduled for cost-benefit analysis. The value of the 28 excluded functions
                           was approximately $53 million.

                                                         Identification Process

                           Table 1 shows the make-or-buy universe for the year each contractor plan
                           was developed and the estimated value of functions that were either included
                           or not included in the contractors make-or-buy identification process.

                                           TABLE 1 – CONTRACTOR MAKE-OR-BUY
                                                IDENTIFICATION PROCESS
                                                        (in millions)


                                                      Make-or-Buy                   Value of Functions
                           Site                        Universe                 Included      Not Included1

                           Savannah River              $1,081                   $1,081               $    0
                           Lawrence Livermore           1,2332                       97               1,136
                           Sandia                       1,646                               1,536
                           110
                           Argonne                         1393                       72                  67

                           TOTAL                        $4,099                 $2,786                $1,313




                           ___________________________
                           1
                             This value may include functions that are less than the $1 million threshold required
                           to be used by the Department's M&O contractors in their identification process.
                           2
                             Lawrence Livermore did not compile a potential make-or-buy universe. The $1,233
                           million represents total expenditures of the Laboratory.
                           3
                             Argonne's contract did not require all functions to be included in their make-or-buy
                           program.


Page 3                                                                                     Details Of Finding
         Only the Savannah River Site identified and assessed all activities. The
         Savannah River Site identified and assessed 250 program and support
         functions valued at about $1.1 billion during its identification process. Using
         a structured approach, all functions were categorized as either core or non-
         core operations. A Savannah River Operations Office official stated that the
         primary impetus for the contractor's aggressive participation in the program
         was to cut its costs in order to meet budget reductions.

         In contrast, Lawrence Livermore National Laboratory, with total
         expenditures of approximately $1.2 billion, did not include all functions in the
         competitive make-or-buy process. Instead, the contractor judgmentally
         selected three functions in each of the first 2 years of the contract. Overall,
         Livermore identified just 15 functions with a total value of approximately $97
         million, even though Livermore's Plant Engineering Department independently
         conducted its own evaluation and identified 48 functions. A Livermore
         official disclosed that the largest six of these functions were valued at over
         $22 million. Only three functions with a valuation of $8.9 million were
         subsequently selected by Livermore to be included in its overall make-or-
         buy program. Other functions not included by management in the make-or-
         buy process were: medical services, payroll, and computer services.

         Livermore officials explained that a more aggressive approach to identify
         outsourcing opportunities would have upset employees. We were also
         advised that the contracting officer had waived identification of all program
         functions except Environmental Management functions, as required by the
         contract, because Headquarters program guidance had not been received.

         Sandia National Laboratories identified all required program and support
         functions valued at about $1.5 billion annually but excluded estimated
         operating costs of about $110 million at Sandia in California. Sandia officials
         advised that many of the non-core functions at this location were already
         outsourced, and the exclusion of the California laboratory functions from the
         make-or-buy plan was due to a communication problem between the two
         laboratories.

         Argonne National Laboratory judgmentally identified 22 support functions
         valued at approximately $72 million. It excluded $67 million in support
         functions such as telecommunications, mail services, health screening, and
         library information services. This limited selection process was, however, in
         accordance with the specific requirements of Argonne's contract. Beginning


Page 4                                                             Details Of Finding
         in Fiscal Year 2000, new contract terms will require Argonne to consider all
         functions in the make-or-buy process. Total value of the functions is
         estimated to be $506 million.

         During the course of the audit, we contacted other M&O contractors to
         determine if all operating functions had been identified in their make-or-buy
         process. Several of these contractors reported that they had not fully
         identified their make-or-buy universe.

                                   Cost-Benefit Analyses

         The contractors' decision to "make" or "buy" non-essential items should be
         based on a detailed cost-benefit analysis. The four contractors reviewed had
         identified 89 candidate functions for outsourcing valued at $192 million.
         However, 28 of these functions, valued at $53 million, were excluded from
         any further evaluation. Table 2 identifies the number and value of
         outsourcing candidates not scheduled for cost-benefit analysis.

          TABLE 2 – OUTSOURCING CANDIDATES NOT SCHEDULED FOR
                          COST-BENEFIT ANALYSIS

                                                                  Candidates Not
                                       Candidates                     Scheduled

                                             Dollar Value                  Dollar Value
                                   Number     (millions)        Number      (millions)
         Savannah River             18          $ 51              0            $ 0
         Lawrence Livermore          6             15             0                0
         Argonne                     22             72              9             36
         Sandia                     43            54             19            17

         TOTAL                        89          $192            28            $53

         Savannah River and Livermore scheduled for analysis all "make-or-buy"
         functions identified. These functions included activities such as invoice
         processing and payment, fire department, fire systems maintenance and
         testing, facilities administration and planning, grounds maintenance, custodial
         services, and travel reservation and ticketing services. Savannah River and
         Livermore analyses indicated that such services could be outsourced and not
         affect the critical capabilities of the contractor.




Page 5                                                            Details Of Finding
                           In contrast, Argonne National Laboratory's contract required only 12
                           functions to be evaluated for outsourcing during the 5-year span of the
                           contract. While the laboratory conducted and submitted 13 evaluations to
                           the Department during the contract period, 22 functions had been identified
                           for potential outsourcing and cost savings. Nine functions, valued at $36
                           million annually, were identified for potential outsourcing but not scheduled
                           for analysis. Examples of these functions include: computer operations and
                           systems maintenance, medical services, telephone services, utilities supply,
                           and fire department.

                           For Fiscal Years 1999 through 2001, Sandia has scheduled 24 of 43
                           outsourcing candidates for cost-benefit analysis. The remaining
                           19 functions, several outsourced by the other contractors included in our
                           review, were excluded from any further analysis. Sandia officials explained
                           that they planned to evaluate the selected functions over a
                           3-year period. However, analyzing all of the potential candidates would
                           require additional staff, which could not be justified. The value of the
                           functions not selected for review was estimated at $17 million.


Elements Of A Successful   A Department Contract Reform Team concluded that the Department and its
Make-Or-Buy Program        M&O contractors should make more rational decisions concerning whether
                           a contractor project or program should "make" or "buy" services. The team
                           recommended that detailed make-or-buy plans be prepared that clearly set
                           forth the areas and actions that each contractor proposed to take in
                           operating government-owned facilities on a least-cost basis. Plans were also
                           to be based on program specific guidance and subjected to contracting
                           officer approval.

                           In June 1997, the Department formalized requirements for contractor make-
                           or-buy programs by amending the Department of Energy Acquisition
                           Regulation. This regulation required M&O contractors in preparing their
                           make-or-buy plans to identify, categorize, and evaluate all of their functions
                           over a dollar threshold.4 It also required contracting officers to evaluate,
                           approve, and monitor contractors' plans. Furthermore, the Department's
                           make-or-buy program and prudent business practices require that all
                           identified outsourcing opportunities be evaluated to determine whether they
                           should be performed by the contractor in-house (make) or outsourced (buy).
                           ____________________________
                           4
                            All functions estimated to cost less than one percent of the contractors' estimated
                           total operating cost or $1 million need not be included in the contractors' make-or-buy
                           plan.

Page 6                                                                                     Details Of Finding
                        Once identified, each operating function is considered a feasible candidate
                        for outsourcing if it is economical to do so.

                        Additionally, contracts for three of the four contractors – Westinghouse
                        Savannah River Company, Lockheed Martin, and University of California –
                        required all functions to be categorized for make-or-buy determinations. On
                        the other hand, the University of Chicago was only to review landlord or
                        support functions from a make-or-buy perspective.


Need For Guidance And   The Department's M&O contractors were not fully successful in
Monitoring              implementing their make-or-buy processes because Headquarters Program
                        Offices did not provide contractors with specific guidance.
                        In addition, procurement officials did not monitor contractor implementation
                        of the program. As a consequence, outsourcing opportunities and savings
                        were missed.

                                                    Program Guidance

                        Program specific make-or-buy guidance permits the contractor to consider
                        factors other than least cost. Such factors reflect special needs or critical
                        items of the Department. Departmental policy stated that the key to
                        successful establishment of a make-or-buy plan is the development of
                        program specific make-or-buy guidance, commonly referred to as criteria,
                        and asserted that the contractor cannot prepare an acceptable plan without
                        such criteria.

                        The Department did not provide the program specific criteria needed to
                        produce contractor make-or-buy plans. Essentially, program officials
                        indicated that they either did not understand their responsibility for issuing
                        such guidance or thought that Department field offices were responsible for
                        developing criteria.

                        The lack of program specific criteria hampered the completion of contractor
                        make-or-buy plans. The contracting officer for the Lawrence Livermore
                        National Laboratory contract limited the contractor's make-or-buy plan to
                        only support and Environmental Management functions because the program
                        specific make-or-buy criteria had not been developed. Additionally, Sandia
                        National Laboratory had to develop its own program specific guidance in
                        order to implement its make-or-buy plan.


Page 7                                                                            Details Of Finding
                                          Monitoring

         Departmental procedures require field procurement officials to evaluate
         proposed make-or-buy plans following receipt from the contractor. After
         approval of the plan, field office responsibilities include assuring that
         contractor performance is in accordance with the plan and appropriate cost-
         benefit analyses are conducted. These monitoring responsibilities, however,
         were not carried out by the Department's field procurement officials.

         Field office officials advised us that only limited attention had been given to
         monitoring contractor make-or-buy plans. Procurement officials at one field
         office stated that oversight of contractor activity had been limited to approval
         of the methodology contained in the contractor make-or-buy plan and
         evaluations of individual "make" or "buy" decisions were not made.
         Procurement officials at two other field offices could not validate "make" or
         "buy" decisions of contractors for which they had responsibility because
         neither contractor provided sufficient data on such decisions. Furthermore,
         one contractor advised that it never intended to provide the Department with
         the results from its formal make-or-buy analyses.

         A Headquarters procurement official indicated that make-or-buy problems
         were due to incorrect assumptions made by Headquarters and field
         procurement officials. This official explained that previous attempts at
         instituting contract reform requirements created considerable discussion
         between field and Headquarters procurement officials. However, make-or-
         buy guidance created very little discussion. As a result, Headquarters
         assumed that the field agreed and was monitoring contractor efforts, and,
         conversely, the field assumed that no followup by Headquarters implied a
         low priority for the make-or-buy program. Consequently, the successful
         implementation of the make-or-buy program was hampered.

         Under the requirements of the Government Performance and Results Act of
         1993, managers are required to establish goals and performance measures
         for program activities. In keeping with this requirement, the Department's
         1998 Strategic Plan stresses the importance of having reporting systems that
         provide useful information needed to manage operations including progress
         of organizational goals and objectives and forms the basis for performance
         measurement. Accordingly, accurate and timely data for make-or-buy
         activities is needed to measure the success of the Department's make-or-buy
         program. However, in implementing the Contract Reform Team's
         recommendations, the Department did not establish site-specific
         performance goals and measures for implementing the make-or-buy
         program.
Page 8                                                            Details Of Finding
Make-Or-Buy         Our review of the Department and contractors' implementation efforts
Opportunities Not   indicated that in most circumstances the Department had not maximized the
Maximized           benefits and savings that could be generated from an effective make-or-buy
                    program. Where such effort was given, significant savings were realized.
                    For example, Savannah River Site avoided
                    $116 million in construction costs by outsourcing the processing of
                    contaminated laundry and by partnering with local municipalities in the
                    development of a new sanitary landfill.

                    Based on our analysis of four sites reviewed, we estimated that the
                    Department could save up to $5.3 million by performing detailed cost-benefit
                    analyses on the 28 outsourcing candidates not scheduled for further analysis.
                    Additional savings may be possible through the inclusion of $1.3 billion of
                    operating functions into three contractors' make-or-buy programs. Further,
                    savings may be possible by directing other contractors to include all functions
                    in their make-or-buy programs.



RECOMMENDATIONS     We recommend that the Director, Contract Reform and Privatization
                    Project Office, in conjunction with the Lead Program Secretarial Offices and
                    the Office of Procurement and Assistance Management:

                    1. Establish site-specific performance goals, objectives, and milestones for
                       implementing a make-or-buy program;

                    2. Develop program specific criteria for core functions; and

                    3. Ensure that field offices monitor contractor implementation of make-or-
                       buy programs by:

                         a. reviewing plans for completeness, core or non-core
                            determinations, and schedules of cost-benefit analyses;
                         b. conducting a thorough review of the cost-benefit analysis prior
                            to approval of any make-or-buy decision;
                         c. determining that all "buy" decisions are implemented; and
                         d. documenting realized savings for make-or-buy decisions.




Page 9                                                   Recommendations And Comments
MANAGEMENT   The Director of the Contract Reform and Privatization Project Office
REACTION     generally agreed with our recommendations and proposed corrective
             actions. The Director disagreed, however, with the OIG’s estimate of
             savings available to the Department.

             Regarding our recommendation to ensure that field offices document realized
             savings (3.d), the Department concurred in principle, but did not provide the
             method by which the savings would be collected or reported. As to our
             $5.3 million estimate of available savings, the Director asserted that our
             calculation was based on an extremely limited sample of make-or-buy plans
             that included “low-hanging fruit.”



AUDITOR      The Department should more specifically address, in its action plan, a
COMMENTS     methodology for documenting savings. Since cost reduction is the
             conceptual basis for the make-or-buy program, such a methodology is
             necessary if the Department is to be in a position to evaluate the success of
             this program.

             The OIG’s estimate of available savings was based on realized demonstrated
             savings applied to the 28 outsourcing candidates included in our examination.
             This was an approach that resulted in a conservative estimate.




Page 10                                           Recommendations And Comments
Appendix 1

SCOPE         The audit was performed August through October 1998 and January through
              October 1999 at the Department of Energy Headquarters; Argonne,
              Lawrence Livermore and Sandia National Laboratories; and the Savannah
              River Site. We also worked with various other Departmental sites to obtain
              contractor data in order to achieve the audit objective.



METHODOLOGY   To accomplish the audit objective, we:

                  • reviewed Federal and Departmental regulations and guidance relating
                    to the make-or-buy program;
                  • held discussions with program officials to determine if program
                    specific make-or-buy criteria had been developed;
                  • held discussions with Departmental and contractor officials to
                    determine the implementation status of the make-or-buy program;
                  • reviewed and analyzed contractors' non-essential functions to
                    determine whether they would be evaluated during the term of the
                    contract;
                  • held discussions and collected data from appropriate Departmental
                    contracting officers to determine the status of contractors' make-or-
                    buy programs and whether they met the requirements of the make-
                    or-buy policy; and
                  • developed estimated make-or-buy savings at the two sites.

              The audit was performed in accordance with generally accepted Government
              auditing standards for performance audits and included tests of internal
              controls and compliance with laws and regulations to the extent necessary to
              satisfy the audit objective. Because our review was limited, it would not
              necessarily have disclosed all internal control deficiencies that may have
              existed at the time of our audit. We did not rely on computer-processed
              data. An exit conference was held with appropriate Headquarters officials
              on January 28, 2000.




Page 11                                                      Scope And Methodology
Appendix 2


                     RELATED OFFICE OF INSPECTOR GENERAL REPORTS


  •   Audit of Outsourcing Opportunities at the Los Alamos National Laboratory (WR-B-00-03,
      January 2000). Los Alamos had not identified all support services with outsourcing potential.

  •   Audit of the Radioactive Liquid Waste Treatment Facility Operations at the Los Alamos National
      Laboratory (WR-B-98-01, November 1997). Treatment costs were significantly higher when compared
      to similar costs incurred by the private sector because Los Alamos did not perform a complete analysis of
      privatization or prepare a make-or-buy plan for its treatment operations.

  •   Audit of Effectiveness and Efficiency of the Rocky Flats Analytical Services Program, (CR-B-95-01,
      November 1994). The M&O contractor at Rocky Flats did not evaluate alternatives to contractor
      provided analytical services. Instead, in-house laboratories were used to provide analytical services when
      less expensive and more efficient services were available from subcontract laboratories.

  •   Audit of Central Shops Fabrication at the Savannah River Site (ER-B-92-03, February 1992).
      Information necessary for management to effectively operate and manage the Central Shops fabrication was
      not available and there was no assurance as to the reasonableness of costs because Westinghouse
      Savannah River Company rarely prepared engineering estimates and did not perform make-or-buy
      analyses.




Page 12                                                                                      Related Reports
Appendix 3




Page 13      Procurement And Assistance Management Guidance
Page 14   Procurement And Assistance Management Guidance
                                                                                IG Report No.: DOE/IG-0460

                                      CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We wish to
make our reports as responsive as possible to our customers' requirements, and, therefore, ask that you consider
sharing your thoughts with us. On the back of this form, you may suggest improvements to enhance the
effectiveness of future reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the audit
   would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this report to
   assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more clear to
   the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this report
   which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions about
your comments.

Name _____________________________               Date __________________________

Telephone _________________________              Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                                        Office of Inspector General (IG-1)
                                              Department of Energy
                                             Washington, DC 20585

                                           ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General, please
contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost effective
 as possible. Therefore, this report will be available electronically through the Internet at the following alternative
                                                        address:

                       U.S. Department of Energy Office of Inspector General, Home Page

                                               http://www.ig.doe.gov

                        Your comments would be appreciated and can be provided on the
                               Customer Response Form attached to the report.
